Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

      The Role of Vital Records Agencies




                       JUNE GIBBS BROWN
                        Inspector General

                         SEPTEMBER 1999
                          OEI-06-98-00055
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill, Project Leader
               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

This report describes the participation of vital records agencies in State paternity establishment
efforts, identifying barriers to participation and strategies to enhance involvement.

BACKGROUND

Welfare reform legislation requires that State vital records agencies offer voluntary paternity
acknowledgment services to parents, receive copies of paternity acknowledgments and
adjudications, and, if designated by their State, keep a central database of all paternity
establishments. This report describes the role of vital records agencies in the paternity
establishment process, using information from mail survey responses from all State vital records
and child support agencies, as well as mail surveys and interviews with local child support
administrators and staff in a selection of focus States.

FINDINGS

State Vital Records Agencies Believe Paternity Establishment Has Public Health Benefits, and
Process and Record Paternity Information, While 35 Maintain a Statewide Database.

An overwhelming majority of vital records offices (46) perceive far-reaching public health benefits
from paternity establishment which go beyond the objective of identifying fathers to gain child
support. Forty-seven State vital records agencies report they accept, process and record paternity
establishments. Thirty-five maintain a Statewide electronic paternity database, with others citing
they lack staff, money, and automated systems to attempt this task.

Local Vital Records Offices in Most States (42) Offer Acknowledgment Services to Parents,
But Implementation Is Often Not Statewide and the Level of Service Varies Considerably.

State child support and vital records agencies in 42 States report parents may receive voluntary
paternity acknowledgment services at local vital records offices, but implementation is Statewide
in only 28 States. Many local vital records offices only distribute forms and do not provide oral
notification of rights and responsibilities, as well as other personal services to parents.

Vital Records Offices May Not Receive Paternity Establishment and Rescission Information.

States may have no formal process for transferring paternity establishment information to vital
records agencies, and a quarter of States only change birth records at parents’ request. Vital
records agencies report they are concerned that they may not receive paternity information from
courts (27 States) and child support offices (12 States). Consequently, birth records within the
vital records agency may be inaccurate and create long-term problems for parents and children.


                                                  i
State Child Support Agencies Rate Vital Records Agencies Favorably in Transferring
Information, But Local Child Support Offices in Focus States Report Difficulty.

State child support agencies in 34 States rate their State vital records agency as excellent or good
in the transfer of information. However, 42 percent of local child support offices in focus States
report retrieving data from vital records agencies is difficult. The method of receiving paternity
information (by request, in batches or on-line) appears to have no real impact on ease of process.

Agency Efforts to Collaborate Have Been Modest, With Child Support Agencies in 22 States
Creating or Enhancing Their Own Statewide Electronic Paternity Database.

Many State child support and vital records agencies have still not made broad efforts to
collaborate, or have abandoned initial efforts. Twenty-two State child support agencies operate
their own Statewide electronic paternity database. The 12 States which report few barriers do not
have unique procedures, but appear to have a stronger commitment to working together.

RECOMMENDATIONS

OCSE Should Promote Notification of Vital Records Agencies When Paternities are
Established or Rescinded, and Encourage Automatic Amendment of the Birth Record.

OCSE should promote State commitment to uniform methods for transferring paternity
information to vital records agencies. In States which amend the birth record only upon parent
request, OCSE should encourage vital records agencies to accept official administrative or judicial
paternity actions as a basis for amending their birth records.

OCSE Should Promote State Training of Local Child Support Staff on Methods of Retrieving
Data from Vital Records Agencies, and Promote Use of Vital Records Agency Information.

Even in States which have designated their vital records agency the repository for paternity
records, local child support staff may not attempt to retrieve information from vital records
agencies because they are unaware of procedures involved or resources available. OCSE should
promote use of vital records systems by assisting States to train child support staff.

OCSE Should Encourage States to Make Training and Materials on Acknowledgment
Procedures Created for Hospital Staff Widely Available to Local Vital Records Agency Staff.

States may enhance parent accessibility to voluntary paternity acknowledgment by offering
services in local vital records offices. Due to lack of staff training and awareness, parents may not
receive proper guidance. OCSE should request that States make training and materials already
prepared for hospital staff more widely available to local vital records offices.

AGENCY COMMENTS

The Administration for Children and Families (ACF) concurred with our recommendations.


                                                 ii
                              TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Agency Collaboration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Paternity Services to Parents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Recording and Storing Paternity Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Providing Paternity Information to Child Support Enforcement . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

                             INTRODUCTION

PURPOSE

This report describes the participation of vital records agencies in State paternity establishment
efforts, identifying barriers to participation and strategies to enhance involvement.

BACKGROUND

Federal Guidance

Welfare reform legislation expanded on previous law to further encourage State child support
agency collaboration with vital records agencies to improve paternity establishment efforts. The
Personal Responsibility and Work Opportunities Reconciliation Act of 1996 required vital records
agencies to offer voluntary paternity acknowledgment services, using the same procedures as
birthing hospitals. The Act mandated that State child support agencies provide training and
materials to facilitate these services, and monitor participation. The Act also required States to
designate an entity to which they must submit voluntary paternity acknowledgments and
adjudications of paternity by judicial or administrative processes for comparison with information
in the State case registry. OCSE proposed regulations that this entity must be the State registry
of birth records. Information used in this report was collected during the comment period of
these proposed regulations.

Final rules submitted by OCSE following our data collection allow greater State discretion to
determine the level of involvement by vital records agencies in paternity establishment efforts.
These rules clarify that while State vital records agencies must offer voluntary paternity
acknowledgment services to parents, no such requirement is placed on local vital records offices
run by counties or municipalities. To increase parent accessibility to paternity acknowledgment,
States may still require their local offices to offer these services. The final rules also allow for
States to designate an entity other than their State vital records agency to serve as the required
central repository of paternity documentation, as long as copies of all paternity acknowledgments
and judicial or administrative paternity adjudications are filed with the State vital records agency.1
However, to capitalize on document storage and retrieval mechanisms already in place, many
States may designate their vital records agency to maintain the required Statewide paternity
database.

Study Objective

Since welfare reform, most State child support agencies have made efforts to collaborate with
their State vital records agency in establishing paternities and storing paternity information.
Collaboration potentially has mutual benefits, in that it may conserve documentation resources
and promote the accuracy of State birth records. This report describes the participation of State
vital records agencies and local offices in paternity establishment efforts. It characterizes the
working relationships of child support and vital records agencies, outlines significant barriers to
effective agency interaction, and analyzes strategies States use to overcome barriers.


                                                  1

Requesting that vital records agencies participate in Federally-mandated programs can be
challenging for States. State vital records agencies have no Federal counterpart which regulates
their policies and practices, and they may not be responsive to Federal legislation which regulates
other State agencies such as child support enforcement. Vital records agencies are likely to
receive Federal funds only as payment for services such as providing birth and death data to the
National Center for Health Statistics. Vital records agencies are, however, dependent on State
funding, since fees charged to the public rarely meet their operating expenses. In order to receive
assistance in meeting Federal mandates, child support agencies may have to appeal to reluctant
vital records agencies using political pressure based on State funding streams. One State registrar
reported, “The child support agency can’t force us to come on board just because the Feds say
we should. In order to get us to spend our time and resources, the [child support] director had
to lean on the governor, who in turn leaned on us.”

METHODOLOGY

Information for this report comes from mail surveys to the primary State vital records office and
child support enforcement office in all 50 States and the District of Columbia (100 percent
response rate). To provide insight on local-level implementation of State policies, we also
surveyed by mail a selection of local child support offices in six focus States: California, Georgia,
Illinois, New Jersey, Texas and Virginia. Offices within these States were selected to provide a
mix of urban, suburban, mid-size and rural locations.2 We received completed surveys from 99
local child support offices, representing an 80 percent response rate. Further, we conducted on-
site interviews with administrators and front-line staff in four local child support offices within
each focus State, visiting offices within one or two cities and their surrounding areas in each focus
State.3 We also requested supplementary documentation including copies of State voluntary
paternity acknowledgment form(s), and public outreach materials.4

We purposively selected the focus States by reviewing the following criteria: non-marital birth
rates by State and locality, State Paternity Establishment Percentages (PEP), percentage of child
support cases with support orders, status of voluntary acknowledgment programs, operations and
certification status of automated systems, outstanding program characteristics, status as State-
administered or county-administered, and geographic region. Our focus States represent a fairly
broad spectrum of implementation strategies and experiences. The selection of focus States does
not purport to be representative of the nation. It does, however, allow for examination of
paternity establishment processes under conditions found throughout the country.5

This study was conducted as part of a larger project on State paternity establishment practices.
Data collection focused primarily on establishment procedures outside birthing hospitals.
Companion reports discuss the use of voluntary acknowledgment forms, genetic testing, and other
administrative and judicial methods of paternity establishment.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                                 2

                                  F I N D I N G S

AGENCY COLLABORATION

Most State Vital Records Agencies Believe Paternity Establishment Has Public Health
Benefits Beyond Child Support Enforcement, and View it as Important to Their Mission.

An overwhelming majority of vital records offices (46) perceive far-reaching benefits from
paternity establishment which go beyond the objective of identifying fathers to gain child support.
However, about half of the respondents who view establishment efforts as beneficial to general
public health qualify this opinion by stating they still see child support enforcement as the primary
objective. Because these agencies are often housed in State public health divisions, their agency
mission is often to provide information to promote family health. Knowing the identity of a
child’s father may be beneficial in tracking family illnesses and hereditary disorders. Additionally,
vital records offices are tasked with keeping accurate records on all State residents. The most
important of these records are birth, death, and marriage. The desire to preserve the validity of
their State’s birth certificates is at the heart of the willingness of vital records’ agencies to
participate in paternity establishment efforts. Repeatedly, vital records agency staff express
concern about protecting the sanctity of the birth record and maintaining its accuracy.

Only five State vital records agencies report they see no general public health benefit to increasing
the number of paternity establishments, indicating they help with these efforts only due to child
support mandates. Agencies in these States, though, often have the most highly developed and
responsive paternity establishment programs. Although they do not perceive establishment efforts
as inherent to their agency’s objectives, they accepted the responsibility in order to keep a firm
hand in matters of public record. Most State vital records agencies (40) also claim that paternity
establishment is important or very important to their overall mission.

Nearly All Vital Records Agencies (47) Process and Record Paternity Establishments, and 35
Maintain a Statewide Electronic Paternity Database.

Forty-seven State vital records agencies report they are responsible for accepting, processing and
recording paternity establishments. Many of these establishments come in the form of voluntary
acknowledgments from hospitals. Vital records agencies typically receive and process paternity
acknowledgments directly from hospitals at the same time as birth certificate information. This
exchange is valuable to child support efforts, because it ensures that at-birth paternity
establishments are recorded in original birth records.6 Thirty-five State vital records offices
currently maintain a Statewide electronic database either separate of their birth registry or
connected to the birth registry but with additional data elements. However, agencies in five of
these States automatically store only voluntary paternity acknowledgments, and not paternities
established through other methods. The remaining 17 State vital records agencies do not store
paternity information electronically. When they receive a request for paternity records from
parents or child support staff, they are likely to rely on birth certificate information from their
traditional birth registry.



                                                  3

Some vital records agencies suggest it would be easier, faster, and cheaper for child support staff
to simply request birth records as a parent would, receiving paper copies through mail or fax. A
problem exists because the paternity acknowledgment form often contains more information than
a birth certificate and therefore requires separate, or at least enhanced, data entry and retrieval.
Therefore, twenty-four State vital records offices report that participating in paternity
establishment programs is at least somewhat burdensome, while most of the remaining States (20)
claim their role does not create a major burden. Those States which report difficulty are split
evenly among States which have centralized paternity databases and those which do not. One
State registrar who has operated a Statewide database for several years says that management of
the information has become easier over time.

State Child Support and Vital Records Agencies Report Better Relationships, But Contact is
Limited Between Vital Records Agencies and Local Child Support Offices in Focus States.

Thirty-six State vital records agencies describe their relationship with their State’s child support
agency as effective or very effective, with most of the remaining agencies reporting their
relationship is at least somewhat effective. State child support responses matched these almost
exactly, with 38 States reporting an effective or very effective relationship. These opinions
represent an improvement over those provided in our 1997 in-hospital study, when most vital
records agencies rated their interaction with child support as somewhat ineffective.7 State
agencies are communicating more often, and appear to be better informed regarding the others’
role and responsibilities. States describing their relationship as ineffective are more likely to lack
contact with the other agency rather than to be at odds. As documented in our companion report,
Paternity Establishment: Payment to Vital Records Agencies (OEI 06-98-00056), child support
agencies also increased their payment to vital records agencies for paternity-related services.

Regardless of the State-level relationship between the two agencies, the participation of individual
vital records offices depends at least somewhat on the commitment and attitude of local staff and
administrators in both agencies. A quarter of local child support offices (24 percent) in our focus
States had no contact at all with their local vital records agency, although child support agencies
in all of the focus States reported at the time of data collection that they used their vital records
agency as the central repository for paternity documentation. Reported contact may have been
low in part because local requests for paternity information directed to their State child support
office were fulfilled through vital records without their knowing its source. Of the 76 percent of
child support managers in focus States who claim to have any relationship with vital records, half
view the relationship as effective and half as ineffective.

Use of Judicial Procedures to Establish Paternity May Inhibit Agency Collaboration.

Although welfare reform legislation requires States create and implement a “simple, civil process”
for paternity establishment, child support agencies in 26 States report that the courts still play a
significant role in paternity establishment. These States may have difficulty reducing court
involvement due to long-standing court-based systems, or because the child support agency is
housed within a State law enforcement agency. Child support agencies in 12 of these 26 States
appear to have little contact with their vital records agency. Local child support offices in these



                                                  4

States may not attempt to contact their State or local vital records agency for paternity and birth
records, not because the vital records agency is unresponsive, but because they do not yet rely on
administrative records, including voluntary acknowledgments, to establish paternity.

Child support staff might use a voluntary acknowledgment form brought into the office by a
parent as a “worksheet” for providing information about the putative father, but may not treat it
as a legal finding of paternity, regardless of the Federal mandate. Instead, they often create an
Administrative Order of Paternity which may go through the courts for approval, or prepare court
documents for a future hearing.8 However, both vital records and child support agencies may not
receive paternity establishment information from the courts.

PATERNITY SERVICES TO PARENTS

Local Vital Records Offices in 42 States Offer Acknowledgment Services to Parents, But
Implementation Is Not Statewide and the Level of Service Varies Considerably.

Although participation by local vital records offices is not required by Federal law, State child
support and vital records agencies in 42 States report parents may receive voluntary
acknowledgment services at local vital records offices. These services include making available
voluntary paternity acknowledgment forms, written and oral notification of parental rights and
responsibilities, and personal assistance to clients in completing acknowledgment forms. If
notarization is required in their State, local vital records offices may also make this service
available. Twenty-eight of these 42 States report full Statewide implementation, with the other 14
States offering acknowledgment services at some, but not all, local vital records offices. The
remaining ten States have not yet attempted to offer on-site services.

Even in local vital records offices offering services to parents, the level of service varies widely
and may be limited to distributing forms. While visiting local child support offices in focus States,
we visited a number of vital records offices to inquire about voluntary acknowledgment services.
Some staff were quite prepared, offering personal assistance and even videotapes, but staff at
other offices had to dig out a brochure from deep in a drawer or refer us to other, larger vital
records offices. Local offices may have only one or two staff members who are familiar with
voluntary paternity acknowledgment procedures. If these people are absent or busy, a parent may
not receive services from a participating office.

Table 1 reports State child support agency responses regarding paternity acknowledgment
services offered by vital records offices in their State. Child support agencies in 25 States report
they track the paternity acknowledgment services offered by vital records offices, and agencies in
24 of these States are also attempting to evaluate the services. In evaluating in-hospital voluntary
paternity acknowledgment programs, child support staff typically record the number of
acknowledgments completed at each facility and compare that number to the total non-marital
births which occurred at the facility over a certain time period. Evaluation of vital records offices
and other social service entities may be more difficult, because it is harder to gauge total parent
contact and the number of potential acknowledgments.




                                                  5

                 TABLE 1: Number of States in Which Particular Services Are
                  Reportedly Offered at Local Vital Records Agency Offices9


                                     SERVICE                                  STATES

     Paternity Acknowledgment Forms Available                                   42

     Outreach Materials Available                                               36

     Personal Assistance in Completing Forms                                    34

     Completed Forms Accepted and Sent to Child Support                         32

     Oral Notification of Parent Rights Provided                                25


To enhance acknowledgment efforts in other local social service offices, vital records agencies in
15 States provide outreach materials and acknowledgment forms to other entities offering services
to parents, such as schools and health clinics. Our study of in-hospital voluntary paternity
acknowledgment programs found that vital records agencies in 34 States provide training and
materials to assist hospital staff in facilitating voluntary acknowledgments as part of their training
in the birth registration process.10

Half of State Vital Records Agencies Are Attempting to Provide Oral Notification of Parental
Rights and Responsibilities When Assisting With Voluntary Paternity Acknowledgment.

When we surveyed vital records offices in 1996 for our study of in-hospital practices, half of the
State vital records agencies reported they were not aware that parents must receive notice of their
rights and responsibilities when they voluntarily acknowledge paternity. This was significant
because vital records agencies were often responsible for helping to train hospital staff in
voluntary acknowledgment procedures. Understanding about this Federal requirement has not
improved. Twenty-five State vital records agencies currently report that their own staff are not
obligated to provide oral notification of rights and responsibilities when parents sign
acknowledgments at local registry offices, which corresponds with the number of States reported
by child support agencies in Table 1. Even in States where the Federal mandate to provide oral
notice is recognized, State offices report vital records staff are largely uncomfortable with the task
and sometimes do not provide oral notice due to lack of time. We discuss these issues in more
detail in our companion report entitled Notification of Parental Rights and Responsibilities for
Voluntary Paternity Establishment (OEI 06-98-00051), and conclude that most State and local
vital records offices either do not understand the requirement or do not make it a priority.

RECORDING AND STORING PATERNITY INFORMATION

Lack of Staff, Money and Automation Inhibit Creation of Paternity Databases, and Birth
Registries May Not Contain Enough Information to Meet Child Support Agency Needs.

Proponents of vital records agencies’ involvement in paternity establishment efforts argue that
maintaining paternity information is not a burden because the agencies already keep birth records.
Vital records offices are experienced at managing large databases and maintaining accurate


                                                   6

records, and these agencies have an inherent incentive to make sure their birth records contain
information on paternity establishments. State vital records agencies, however, suggest that short
staffing (38 States), inadequate funding (35 States), and lack of automation (22 States),
particularly in rural areas, may prevent them from creating and maintaining such systems.
Additionally, it is likely that their current birth registry will contain only the data elements
included in a traditional birth certificate, and not those Federally mandated to be included on the
paternity acknowledgment form.11 Some States have been able to add these data elements into
the electronic record of the birth certificate, and may then simply attach the paternity affidavit to
the birth certificate for paper records. However, adding data elements to official birth records
increases data entry time and agency cost, and usually requires State legislative action.

Another issue is that the birth certificate does not conclusively establish paternity in the same way
as a paternity acknowledgment affidavit.12 Therefore, a copy of the paternity affidavit is necessary
for child support staff to create a support order. A local child support manager in one of our
focus States explains this issue:

        “The birth certificate is not the main thing. It is the declaration of paternity (voluntary
        acknowledgment form) itself that matters as legally establishing paternity. The birth
        certificate is just changed to reflect what occurred on the declaration [of paternity].
        Sometimes paternity is acknowledged and the birth certificate never gets changed.”

Vital Records Agencies May Not Receive Paternity Information from Courts and Child
Support Agencies, and a Quarter of States Only Change Birth Records at Parents’ Request.

Welfare reform mandates that paternity documentation be sent to vital records agencies,
regardless of whether they are designated the State’s paternity repository. The accurate and
timely transfer of information on establishments from hospitals, child support agencies, and courts
to vital records agencies is critical to the ability of vital records agencies to effectively process and
store data, and to maintain birth records. The OCSE Annual Report to Congress indicates that,
nationally, about one-third of paternities are established through in-hospital programs.13
Therefore, in States where the vital records agency regularly receives paternity information only
from hospitals, a majority of the State’s paternity establishments may not be recorded in the vital
records database.

Other than voluntary acknowledgments completed at hospitals, vital records agencies, and other
alternative sites, most paternities are established through child support offices or the courts. Vital
records agencies in 12 States report they are concerned that the child support office is not
consistent in providing paternity establishment information to vital records offices, and the
problem is apparently more prevalent for paternities established judicially. Twenty-three State
vital records agencies report they have concern that their courts do not consistently provide
paternity information. Many court systems are not highly automated, and may never have created
uniform procedures for adequately transferring information. They may rely on paper
documentation which is relayed late, if at all, to vital records offices, and nearly always bypasses
the child support enforcement agency. As one State registrar notes, “We are contacted by
parents who expect that paternity information has been added to their child’s [birth] certificate,
yet the vital records office has had no notification from the court.”


                                                   7

When a paternity is established outside the hospital after the birth record has been entered, vital
records agencies must amend the record to reflect the new information. Yet, vital records
agencies in 13 States only amend the birth record at the parents’ request. Typically, parents must
complete a birth amendment form containing no errors, and also submit payment of approximately
20 dollars. Unless parents in these States take this initiative to notify vital records, the official
birth record will retain the original father’s name or remain blank if the parents did not
acknowledge paternity at the hospital. One vital records agency respondent wrote, “The parents
must notify us of these establishments, and often they don’t know to do so.”

Although the Incidence of Rescissions is Low, There is a Problem With Vital Records
Agencies Not Being Notified When Parents Rescind Voluntary Paternity Acknowledgments.

Welfare reform regulations allow parents to rescind voluntary paternity acknowledgments within
60 days of signing an acknowledgment or prior to the establishment of a child support order,
whichever is shorter. We reported in 1996 that the number of rescissions was very low, and our
current data indicates that rescissions are still infrequent.14 Thirty-nine State vital records
agencies and 35 State child support agencies report few or no rescissions. Two States do report
handling more than a few rescissions, yet still report the number to be fairly small. Nonetheless,
some vital records and child support respondents express concern that the increase in voluntary
paternity acknowledgments might eventually cause an increase in requests for rescission.

Forty-five State vital records offices report having a procedure for rescinding voluntary paternity
acknowledgments, but these procedures are implemented unevenly and vital records offices may
not be informed of needed changes to the birth record when a rescission occurs. Whether the
rescission process is fully administrative (18 States), conducted by the courts (15 States), or a
quasi-administrative procedure requiring some sort of judicial approval (6 States), child support
agencies and courts sometimes do not notify vital records agencies of rescissions. When this
failure occurs, the State registry houses inaccurate birth records, which can have long-term
consequences for the parents and child. Vital records agencies in 11 States report they do not
receive rescission information unless the parents happen to request an amendment of the birth
record, and most others appear to have no formal method to ensure notification. Twenty-one
State vital records agencies confirm they change the birth record automatically when notified of a
rescission, while the remaining require additional action on the part of parents or courts.

PROVIDING PATERNITY INFORMATION TO CHILD SUPPORT ENFORCEMENT

State Child Support Agencies Rate Vital Records Agencies Favorably in the Method and
Timeliness of Information Transfer, But Local Offices in Focus States Report Difficulties.

Thirty-four State child support agencies rate the effectiveness of the method used by their vital
records agency for transferring information as excellent or good, and 32 State child support
agencies rate the timeliness with which they receive paternity information from vital records as
excellent or good. Only two State child support agencies rate these qualities as poor. However,
42 percent of local child support offices in our focus States report paternity information is difficult
to obtain from vital records offices. During interviews, caseworkers complained that the
meticulous standards and outdated processes of vital records offices inhibit their ability to get the


                                                  8

paternity information they need. Staff in some offices also complained was that vital records
agencies are slow to update central databases, often making information outdated.

Another problem may be that, for several reasons, local child support staff are not attempting to
access information from State or local vital records agencies. It may be that workers are reluctant
to learn new procedures (particularly if they require computer skills), or that local managers have
not encouraged queries of vital records data. Child support staff may also have made requests
months or years ago that were not met, and may not be aware that their State’s vital records
system has been updated and improved. A local child support agency “paternity specialist” in one
of our focus States had no information about how to access records from the State registry,
although her State vital records office offered both on-line access and paper copies by request.
Another caseworker in a focus State reports, “We might try and get a copy from another county
or from the registry, but usually it is easier and faster to just do another [acknowledgment].”
This practice wastes time and effort by duplicating an existing paternity establishment, and may
cause future problems when a father named on the birth certificate is not a party to the new action
and is not notified that he has been replaced as the legal father.

Child Support Agencies Receive Paternity Information Most Often In Batches or By
Individual Request, But An Increasing Number of States are Attempting On-Line Access.

Vital Records Agencies Are Often Inconsistent When They Attempt to Send All
Acknowledgments to Child Support Offices in Batches.

About a third of States (18) have tasked their local vital records offices with automatically
sending all acknowledgments completed in their area to the local child support office. This
information may be sent electronically but is more often shared by mailing paper copies of
acknowledgment affidavits. In several local offices we visited, child support staff received notice
of the names of parties involved in local paternity acknowledgments by electronic prompt or
“morning mail” on their computer network system, in addition to receiving paper copies.
Batch transfers generally only include information for paternities established within the local area,
while child support staff may need information regarding paternities established elsewhere.

Procedures for sending batches of paternity acknowledgments to local offices may be inconsistent.
Local staff we contacted in half the offices receiving batch files maintain that they do not receive
acknowledgments regularly. A local child support office administrator claims to have received
only a handful every few months, “when the workload slows down periodically at the local
registry office.” Because workers receive information sporadically, and are unsure that the data
they receive is complete, they often do not rely on this information to establish paternity and only
use an acknowledgment form if the mother brings it into the office. Finally, vital records agencies
often only send information about voluntary acknowledgments, and possibly only those completed
in hospitals, omitting any paternities established through other methods.




                                                  9

Child Support Agencies May Experience Delays When Information is Sent by Request, and Some
Find it Easier to Request a Birth Certificate Than a Paternity Acknowledgment.

When State or local vital records offices send paternity information only when requested by child
support offices, instead of automatically, timeliness is the biggest problem. Twenty-two States
rely primarily on this method, and child support administrators in over half of those States (12)
report that waiting for these records significantly slows the process of establishing paternity and
creating a child support order. States report receipt of requests takes from six days to eighteen
months, but the average appears to be between 30 and 60 days. Twenty-seven States, however,
do not consider timeliness of receipt a problem. One local child support administrator in one of
our focus States reports, “It may take a couple weeks or a month to get information from the
vital records office, but this is not very long in the scheme of things.”

Some local child support staff we contacted report that it is often faster to order a birth certificate
from vital records than a paternity acknowledgment affidavit. Although birth certificates do not
usually contain as much information to assist in locating fathers and in most cases cannot serve to
conclusively establish paternity, they can be used as evidence to establish paternity through other
methods. This means, however, that staff may establish paternity twice. Because all States now
require that a father must sign a paternity acknowledgment to have his name on the birth
certificate, an acknowledgment must already exist which, by Federal law, conclusively establishes
paternity. Even birth certificate records can be hard to come by, though, when vital records
offices are backlogged with requests. Requests from child support staff may not be prioritized
over other requests, and delays can be significant. Local child support staff we contacted report,
for example, “We first try to get the birth certificate from the mother or the public assistance
office, because it takes too long to make a request [of the vital records office].

Nineteen State Child Support Agencies Have On-Line Access to Vital Records Databases, But
Some of Their Local Child Support Offices Do Not Utilize This Access.

In 19 States, child support staff in at least some local offices have on-line access to the vital
records agency database. We estimate that 12 to 15 of these States have fully functional systems
which allow child support staff to view birth records from their own computer terminal as soon as
the births are registered. These programs are largely successful in providing paternity
establishment information faster so that child support staff can more easily create an order for
support. Proponents of on-line access extol its advantages, such as eliminating the need for vital
records staff to pull records upon request, and giving child support staff more control over this
important information. However, even in some States with on-line technology, some local staff
report not using this information because it is not updated consistently or in a timely manner.

Child Support Agencies in 22 States Created or Enhanced Their Own Statewide Paternity
Databases, and Use Them Either in Lieu of, or in Addition to, any Vital Records Database.

Twenty-two State child support agencies have in-house electronic paternity databases that contain
Statewide data, and in another eight States some local offices maintain decentralized electronic
paternity databases. These States may have developed their own effective paternity recording and
storage methods prior to Federal encouragement of vital records involvement and are reluctant to


                                                  10

switch, or have attempted to access information from vital records agencies and been frustrated
by delays or incomplete records. Despite the possibly redundant efforts, one worker described
preferring to “deal with the devil you know, rather than the devil you don’t know.” Among the
30 States with some sort of paternity database maintained by the child support agency, 18 of their
State vital records agencies also have a centralized paternity database, which appears to be a
duplication of effort. As mentioned, however, vital records databases may include only voluntary
paternity acknowledgments, excluding paternities established through courts or other methods.
Child support agencies in at least some of these States appear to use both databases. Staff may
check their own on-line system for a paternity establishment, and not finding one, make a request
to vital records while still working to complete an Administrative Order of Paternity or judicial
finding. If they receive a copy of a voluntary paternity acknowledgment from vital records prior
to completion of these other efforts, they use the acknowledgment to move forward in creating a
child support order.

Some States appear to have attempted more advanced methods for sharing information during the
initial national push to establish more paternities, but have since abandoned these methods
because of difficulties. The child support agency in at least one county-administered State, for
example, has hired a private company to process, store, and retrieve voluntary paternity
acknowledgments because local offices were experiencing retrieval delays of up to 18 months.
The program is too new to evaluate its effectiveness, but the State child support office reports the
cost of the vendor was similar to retrieval costs formerly paid to the vital records agency. The
vital records office in this State still corrects and modifies birth certificates, which, according to
the chief registrar, “in most instances involves a court order and is controlled by our State
statutes dealing with the birth registration process and not with the voluntary paternity
adjudication process.”

Agency Efforts to Collaborate Have Been Modest, and States Experiencing the Fewest
Problems Appear to Have Made Stronger Commitments.

When Federal legislation in 1993 began to focus more attention on increasing paternity
establishments through administrative methods, State child support agencies were encouraged to
view paternity establishment as a public health initiative and to work in partnership with other
State agencies, particularly vital records agencies, to meet the new establishment goals. However,
often we see the two State agencies collecting, processing and reporting paternity information
separately, which causes a number of potential problems. At worst, they may be using conflicting
information because courts or the child support agency have taken action without notifying the
other entities. At best, they may be duplicating efforts and wasting resources. Many State child
support agencies have still not made broad efforts to collaborate or have abandoned their initial
efforts in favor of self-reliance. State practices that largely circumvent vital records agencies by
contracting a private vendor to record, store and retrieve paternity information could become a
bellwether for the future. In States which began strategies to collaborate and have yet to achieve
even limited success, child support staff may be reluctant to devote any more time to refining the
process.




                                                 11

There does not appear to be a magic formula for successful collaboration. We identified 12 States
in which both agencies consider themselves to have effective relationships, relying on each other
to provide accurate and timely paternity information, and voicing few complaints about each
other’s efforts. In studying States which report the fewest barriers, no procedural patterns
emerge. These States have systems and procedures similar to other States which are experiencing
difficulty in working together. The difference appears to be in the level of commitment by
administrators and staff to making these processes work effectively. For example, two States
might have similar systems for mailing batch files of paternity establishments to their local child
support offices, but vital records office managers in one State insist that it is done each week
while consistent transfer is not a prioritized in another State. Perfecting collaboration between
these large and dissimilar State agencies understandably takes time, but there are inherent
advantages. Working together effectively will likely improve the accuracy of birth records held by
both agencies, and ensure more efficient use of resources. To achieve success, States may have to
revise their strategies or simply better enforce implementation of their initial framework for
collaboration, emphasizing long-term systemic progress over short-term results.




                                                12

                      RECOMMENDATIONS

OCSE Should Promote Notification of Vital Records Agencies When Paternities are
Established or Rescinded, and Encourage Automatic Amendment of the Birth Record.

OCSE should promote State commitment to uniform methods for transferring paternity
information to vital records agencies. In States which amened the birth record only upon parent
request, OCSE should encourage vital records agencies to accept official administrative or judicial
paternity actions as a basis for amending their birth records.

OCSE Should Promote State Training of Local Child Support Staff on Methods of Retrieving
Data from Vital Records Agencies, and Promote Use of Vital Records Agency Information.

Even in States which have designated their vital records agency the repository for paternity
records, local child support staff may not attempt to retrieve information from vital records
agencies because they are unaware of procedures involved or resources available. OCSE should
promote use of vital records systems by assisting States to train child support staff.

OCSE Should Encourage States to Make Training and Materials on Acknowledgment
Procedures Created for Hospital Staff Widely Available to Local Vital Records Agency Staff.

States may enhance parent accessibility to voluntary paternity acknowledgment by offering
services in local vital records offices. Due to lack of staff training and awareness, parents may not
receive proper guidance in completing voluntary paternity acknowledgments in local vital records
offices. OCSE should request that States make training and materials already prepared for
hospital staff more widely available to local vital records offices.

AGENCY COMMENTS

The Administration for Children and Families (ACF) concurred with our recommendations and
requested additional information, which we will provide.

ACF’s comments are provided in their entirety in Appendix A.




                                                 13

                                    ENDNOTES

1. States may choose to designate the child support agency itself or a private vendor as the
repository of paternity documentation.

2. These State and local offices were not randomly selected and their responses should not be
interpreted as representative of all local offices in the nation or even within their own State.

3. The availability of OIG agency support staff to assist in conducting interviews played a role in
selection of these interview sites.

4. Although vital records agencies work with birthing hospitals in recording voluntary paternity
acknowledgments completed at birth, we did not contact hospitals for this study. We completed a
extensive analysis of birthing hospital participation in voluntary paternity acknowledgment
programs in 1997 (OEI-06-95-00160 and 00161), which includes information about vital records
agency involvement in training and collaborating with hospital staff.

5. The six focus States comprise 31 percent of total U.S. births, 32 percent of total U.S. non-
marital births, 32 percent of total U.S. IV-D cases, 26 percent of total U.S. IV-D cases with child
support orders, and 27 percent of total U.S. IV-D cases with child support collections. The
collective non-marital birthrate of the focus States is almost identical to the national average (32.0
percent vs. 32.4 percent), with somewhat lower, but comparable, rates for the percentage of IV-D
cases with support orders (47.3 percent vs. 57.3 percent), and the percentage of cases actually
collecting support (16.4 percent vs. 19.4 percent). Comparison data comes from the OCSE 21st
Annual Report to Congress and the National Center for Health Statistics.

6. Welfare reform legislation mandates that a father must sign a voluntary acknowledgment of
paternity before his name can be included on the birth certificate.

7. In-Hospital Voluntary Paternity Acknowledgment Program: State Agency and Birthing
Hospital Implementation (OEI-06-95-00160).

8. We provide more information about administrative and judicial paternity establishment in our
reports Paternity Establishment: Use of Voluntary Paternity Acknowledgments (OEI 06-98-
00053) and Paternity Establishment: Administrative and Judicial Methods (OEI 06-98-00050).

9. As mentioned, these services are reported to be offered Statewide in 28 States and in only
some local vital records offices in another 14 States.

10. OEI-06-95-00160.

11. Data elements States must include on their voluntary paternity acknowledgment affidavits are:
current full name, address, social security number and date of birth of the mother and father;
current full name, date of birth, and birthplace of the child; brief explanation of the legal
significance of signing the acknowledgment and a statement that both parents have 60 days to
rescind the acknowledgment; a clear statement signed by both parents indicating that they


                                                 14

understand that signing the acknowledgment is voluntary and that they understand what their
rights, responsibilities, alternatives and consequences are; signature lines for the mother, father,
and any witnesses or notaries. This information is contained in 62 Fed. Reg. 39246.

12. Federal law does not preclude the use of the birth certificate rather than a separate affidavit
for paternity acknowledgment if the birth certificate contains the necessary data elements, but all
States have chosen to develop separate voluntary paternity acknowledgment forms.

13. In our prior study of in-hospital voluntary paternity acknowledgment programs, both hospitals
and vital records agencies reported highly effective methods of transferring paternity
documentation when acknowledgment took place in the hospital (OEI-06-95-00160).

14. OEI-06-95-00160.




                                                  15

